<html>
<title> - OVERSEEING THE OVERSEERS: COUNCIL OF THE INSPECTORS GENERAL ON INTEGRITY AND EFFICIENCY @ 10 YEARS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



                       OVERSEEING THE OVERSEERS:
                   COUNCIL OF THE INSPECTORS GENERAL
                 ON INTEGRITY AND EFFICIENCY @ 10 YEARS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           SEPTEMBER 18, 2019
                               __________

                           Serial No. 116-61
                               __________

      Printed for the use of the Committee on Oversight and Reform
      

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                   
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-973 PDF                  WASHINGTON : 2020   
                   
                   
                   
                   
                   
                   
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Paul A. Gosar, Arizona
Wm. Lacy Clay, Missouri              Virginia Foxx, North Carolina
Stephen F. Lynch, Massachusetts      Thomas Massie, Kentucky
Jim Cooper, Tennessee                Mark Meadows, North Carolina
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               James Comer, Kentucky
Harley Rouda, California             Michael Cloud, Texas
Katie Hill, California               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Ralph Norman, South Carolina
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Frank Keller, Pennsylvania
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
              Wendy Ginsberg, Subcommittee Staff Director
                     Joshua Zucker, Assistant Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

                 Subcommittee on Government Operations

                 Gerald E. Connolly, Virginia, Chairman
Eleanor Holmes Norton, District of   Mark Meadows, North Carolina, 
    Columbia,                            Ranking Minority Member
John P. Sarbanes, Maryland           Thomas Massie, Kentucky
Jackie Speier, California            Jody Hice, Georgia
Brenda L. Lawrence, Michigan         Glenn Grothman, Wisconsin
Stacey E. Plaskett, Virgin Islands   James Comer, Kentucky
Ro Khanna, California                Ralph Norman, South Carolina
Stephen F. Lynch, Massachsetts       W. Gregory Steube, Florida
Jamie Raskin, Maryland



                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on September 18, 2019...............................     1

                               Witnesses

Michael A. Horowitz, Inspector General, Department of Justice, 
  Chairman, Council of the Inspectors General on Integrity and 
  Efficiency
Oral Statement...................................................     6
Kathy A. Buller, Inspector General, Peace Corps, Executive 
  Director, Council of the Inspectors General on Integrity and 
  Efficiency Legislation Committee
Oral Statement...................................................     7
Scott Dahl, Inspector General, Department of Labor, Chairman, 
  Council of the Inspectors General on Integrity and Efficiency
Oral Statement...................................................     9

Written opening statements and witnesses' written statements are 
  available at the U.S. House of Representatives Repository: 
  https://docs.house.gov.

                           Index of Documents

                              ----------                              

The documents listed below, and pending responses, will be 
  available at: https://docs.house.gov.

  * Questions for the Record from Chairman Connolly to the 
  Honorable Scott Dahl, Inspector General at the U.S. Department 
  of Labor, and responses.

  * Questions for the Record from Chairman Connolly to Ms. Kathy 
  A. Buller, Inspector General at the Peace Corps, and responses.

  * Questions for the Record from Chairman Connolly, Ranking 
  Member Meadows, and Rep. Massie to the Honorable Michael E. 
  Horowitz, Inspector General at the U.S. Department of Justice.


 
                       OVERSEEING THE OVERSEERS:
                   COUNCIL OF THE INSPECTORS GENERAL
                 ON INTEGRITY AND EFFICIENCY @ 10 YEARS

                     Wednesday, September 18, 2019

                   House of Representatives
                  Committee on Oversight and Reform
                      Subcommittee on Government Operations
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 11:01 a.m., in 
room 2154, Rayburn Office Building, Hon. Gerrald Connolly, 
(chairman of the subcommittee) presiding.
    Present: Representatives Connolly, Norton, Plaskett, 
Khanna, Raskin, Meadows, Massie, Hice, Grothman, Norman, 
Steube, and Jordan.
    Mr. Connolly. Good morning. Thank you, and welcome to our 
hearing on ``Overseeing the Overseers: The Council of 
Inspectors General on Integrity and Efficiency.''
    Among the most important and misunderstood jobs in our 
Federal Government is that of Federal inspectors general. These 
unique Federal employees straddle the executive and legislative 
branches and serve as critical components of effective 
oversight.
    IGs, better known by the public as Federal watchdogs, help 
Congress uncover waste, fraud, and abuse at Federal agencies 
and they help agencies to find efficiencies that can improve 
service to the American public.
    IGs have served in this sometimes unpopular role for more 
than 40 years. In Fiscal Year 2017 alone, the IGs identified 
$32.7 billion in potential savings across the Federal 
Government as documented in the nearly 4,000 reports released.
    IGs have also recovered $21.9 billion from settlements and 
civil judgments resulting from nearly 22,000 investigations. 
For American taxpayers that means that for every dollar we 
invest to fund these offices we can expect a $22 return.
    And IGs do more than save the Federal Government money. 
They improve agency safety, call balls and strikes on agencies 
that fail to follow established and fair processes and 
procedures, and they perform work that has the potential to 
save lives like the Agency for International Development and 
its work examining the lessons learned from the agency's Ebola 
response efforts.
    Today's hearing examines the role of the Council of 
Inspectors General on Integrity and Efficiency, and the role it 
plays in continuously improving the IG community.
    This interagency IG council, known as CIGIE, serves as a 
hub of oversight professionalization and information sharing 
across the IG community.
    Eleven years ago, Congress established CIGIE by merging a 
council for the smaller IGs and one for the larger IGs, and 
CIGIE began operations in 2009, making this CIGIE's 10-year 
anniversary.
    The progress CIGIE has made over the last decade is 
commendable. CIGIE has tapped talented work forces to create 
oversight.gov, a one-stop shop for all reports issued by any of 
the 74 Offices of Inspector General.
    This online tool allows the public and Congress to look 
across agency boundaries and identify top management challenges 
across the government.
    This tool also allows for real-time identification of 
issues that plague the Federal Government and give us, as 
Congress, a chance to generate enterprise solutions.
    We are here today to find ways to help CIGIE build on these 
successes and examine ways to further explore efficient 
community wide solutions that increase the independence of the 
IG community.
    After all, the community whose mission is to find 
efficiencies across government should challenge itself to find 
those same opportunities at home. I believe that CIGIE's 
leadership can advance these goals.
    Most importantly, this hearing will probe whether CIGIE is 
effectively performing its most important function--watching 
the watchdogs.
    The unique nature of the IG position makes oversight of the 
IGs complicated but essential. Currently, the Integrity 
Committee, which operates within CIGIE, is charged with 
investigating allegations of wrongdoing against IG officials.
    The Integrity Committee has at times operated without 
transparency, which is in contrast with the values of the IG 
community itself, whose greatest strength is sunlight.
    I often say that IGs, the overseers of agencies, need to be 
as pure as driven snow because if they are not all of their 
work is tainted, and that is critical.
    The IG has to be respected by both sides of the aisle, by 
both bodies here in Congress, and by, more importantly, the 
public.
    I have also got particularly concerns about Offices of 
Inspectors General who share their IT service with agencies 
that they oversee.
    Congress deliberately created the IGs 40 years ago to be 
independent from the agencies they oversee. While we trust 
agencies would never inappropriately access investigative 
materials created by their IGs, I am concerned that even the 
appearance of potential impropriety is a risk to IG 
independence.
    I think CIGIE has been working in this area and could play 
a pivotal role in finding a collaborative cross-community 
solution to the problem.
    I also believe that CIGIE needs to be more transparent. I 
have had my own personal experience several years ago and was 
left far from being satisfied.
    When two members of the committee filed a complaint, we 
witnessed the process firsthand and it was a dismissive 
process. It was not a transparent process and it raised real 
concerns.
    And I know, Mr. Horowitz, you and I met about that at the 
time and I know that you were not unsympathetic to the concerns 
raised and I am eager to hear what progress we are making and 
need to make as we proceed.
    In celebrating 10 years of CIGIE, we should also examine 
CIGIE's role in filling IG vacancies by helping the president, 
agency heads, and Congress to find qualified candidates for 
vacant IG positions.
    Today, we will examine whether those responsibilities need 
clarification or reinforcement. Too often administrations do 
not understand the role of the inspector general and attempt to 
infuse politics into the selection process for a new IG, or 
worse, and again, that taints the process and compromises the 
integrity of the IG.
    Finally, this hearing will examine recent transparency 
measures CIGIE and its Integrity Committee have adopted in its 
periodic reporting and explore options for codifying these 
reforms.
    We seek to ensure that the watchdog's watchdog remains 
above reproach by increasing the transparency and access to the 
Integrity Committee operations.
    And with that, I call upon the distinguished ranking member 
for his opening statement.
    Mr. Meadows. Thank you, Mr. Chairman, and thank all of you 
for the work that you do.
    When I came to Washington, DC, I wanted to make sure that 
government was accountable not only to the constituents of mine 
in North Carolina but to all of America, and it is the 
hardworking American taxpayers' dollars that we have to make 
sure that we protect and, certainly, the Offices of the 
Inspectors General play a critical role in doing just that.
    As I came to Congress, I didn't know what an inspector 
general was and now I have come to learn that it is the 
frontline defense on making sure that waste, fraud, and abuse 
are not pervasive within our Federal Government.
    Your independence is key and, certainly, our Councils of 
Inspectors General for Integrity and Efficiency, also known as 
CIGIE--we work in acronyms around here--are crucial to help 
providing the IGs with their support for that mission.
    And, Mr. Horowitz, let me just say that, you know, your 
name probably gets invoked more by both sides of the aisle than 
you would care and it is not normally in your CIGIE role that 
it does that.
    But I appreciate you being here and, certainly, all of you 
in the role. Some of you, this is not your first rodeo on being 
here. In fact, I don't think it is your first rodeo for any of 
you here today.
    And no matter how partisan this committee gets--no matter 
how partisan it gets, I am confident that we can all agree that 
your role in the roles of the inspectors generals' mission is 
more important than ever.
    We must make sure that the inspector generals have the 
statutory authorities, the resources necessary to fully carry 
out their investigations, their audits, their reviews, 
allegations of misconduct.
    And there are often times when at a subcommittee level or 
the full committee level where I find that the chairman and I 
are looking at those recommendations that the IGs make and 
whether an administration, whether it is under the previous 
administration--under the Obama Administration or under the 
Trump administration, whether they are actually acting 
appropriately.
    And so you are critical in that role and so as we look at 
this on this 10th anniversary of the creation of CIGIE I think 
the CIGIE's mission transcends individual government agencies.
    It is all about making sure that you have the tools. I, for 
one, as a fiscal conservative hate to spend money on just about 
anything that does not provide a return.
    You don't have to say amen, and so but on this particular 
thing, making sure that you are well funded and that you have 
the tools, there is not a dime's worth of difference between 
the chairman and I in terms of making sure that you are well 
equipped.
    It is crucial that we work together to examine the systems 
that would actually provide real IG reform and just as recent, 
I think, as yesterday the chairman and I were working together 
on a piece of legislation that actually goes a little bit 
further in making sure that that independence is truly there 
and that we have objective oversight.
    I want to thank all of our witnesses being here today. I 
want to regress just a little bit. I need to make--mention 
something that the chairman and I have talked about.
    It has been a longstanding committee policy that we allow 
minority witnesses and, in fact, the House rules provide for 
those. And, Mr. Chairman, we asked for the inspector general 
for WMATA, of which we have had a number of hearings, to be 
here.
    And for that particular inspector general, who is not a 
member of CIGIE but also is something that we need to examine 
in terms of the tools that they have to do what truly is 
important because WMATA--we have had a number of hearings where 
deaths and injuries have been reported where it has been 
critical to this committee and for us to not be in a position 
to have that inspector general here is certainly something that 
we don't agree with.
    We would encourage us working in a bipartisan manner as we 
go forward to, hopefully, highlight that important testimony 
that needs to come forward.
    And I yield back.
    Mr. Connolly. I thank my friend and I thank him for how he 
has approached that issue.
    Let me just assure my friend--and, apparently, there was 
some miscommunication--I would never knowingly deny my friend 
or anyone on this side of the aisle their right to have a 
minority witness.
    That happened to us and I know how it felt. So I would 
never knowingly do that. I, honestly--I honestly felt that this 
hearing was about Federal IGs. The Metro IG is not a Federal 
official, and this was about CIGIE, and by not being a member--
a Federal official neither is he a member of CIGIE.
    And I--so I saw this as sort of a good government, fairly 
narrow in scope kind of hearing. Important, but narrow in 
scope.
    And as my friend knows, we have the Metro IG scheduled as a 
witness on a hearing dedicated to Metro on October 22 and I 
felt that, plus the request of the IG of Metro to look into the 
matter of Mr. Evans and the ethical questions that have been 
raised by documents made available both to the minority and the 
majority that we had--we had met the concerns you raised.
    And so as we move forward, I hope you and I can make sure 
that our lines of communication are what they need to be so 
that we don't have a misunderstanding.
    But I want to assure my friend there was no intent by this 
chairman or by our side of the aisle to deny the minority its 
rights and I absolutely am committed to those rights because I 
remember another former chairman, Mr. Issa, being denied those 
rights, in effect, and it didn't feel good and I would never 
inflict it on my friend or members of the minority.
    So with that assurance, we will move forward and do better.
    The distinguished ranking member of the full committee is 
with us. Mr. Jordan, did you have anything you wanted to say?
    Mr. Jordan. Thank you, Mr. Chairman.
    I just associate myself with the remarks from the ranking 
member and the remarks from--opening statement from the 
chairman and I appreciate the chairman's statement relative to 
the witness issue that was raised.
    But mostly I want to thank the witnesses who are here today 
for the good work they do and for taking the time to appear 
before us today and I look forward to asking questions a little 
later.
    Thank you, Mr. Chairman.
    Mr. Connolly. Thank you, Mr. Jordan.
    And now let me introduce our three witnesses. We are joined 
by Michael Horowitz, who is the inspector general of the 
Department of Justice.
    He has appeared before this committee in the past and is a 
great example, I think, of why integrity and transparency are 
so important because he has had some very difficult assignments 
and has been well received by both sides of the aisle despite 
the politically charged nature of some of those assignments, 
and that is because you were trusted on both sides and I think 
that trust is just critical for the effectiveness of your job.
    And he also serves as the chairman of the Council of 
Inspectors General on Integrity and Efficiency, relevant to 
today's topic.
    Kathy Buller is the inspector general of the Peace Corps 
and we are delighted to have you. She is also the executive 
chair of the Council of CIGIE Legislative Committee. Welcome.
    And Scott Dahl is the inspector general of the Department 
of Labor. He is chairman of the CIGIE Integrity Committee, an 
important committee for CIGIE.
    If all three of you would rise and raise your right hands. 
It is our tradition to swear in our witnesses.
    [Witnesses were sworn.]
    Mr. Connolly. Thank you. Let the record show the witnesses 
have answered in the affirmative, and as we begin, without 
objection I want to assure you that your full written statement 
will be made part of the full record and we would ask you to 
summarize your testimony in a five-minute timeframe.
    And we will begin with you, Mr. Horowitz. Welcome.

STATEMENT OF MICHAEL HOROWITZ, INSPECTOR GENERAL, DEPARTMENT OF 
   JUSTICE, ON BEHALF OF CHAIRMAN, COUNCIL OF THE INSPECTORS 
              GENERAL ON INTEGRITY AND EFFICIENCY

    Mr. Horowitz. Thank you.
    Thank you, Chairman Connolly, Ranking Member Meadows, 
members of the subcommittee. Appreciate the invitation to 
testify today.
    Inspectors general play a critical role in keeping the 
public informed about how their government operates and in 
ensuring that taxpayer money is used effectively and 
efficiently.
    The chair recognized the tens of millions of dollars--tens 
of billions of dollars in potential savings that IGs identify 
each year and the strong return on investment we provide to the 
taxpayers.
    As you noted, we call balls and strikes and the facts as 
they are, whether popular or unpopular. I can tell you it is 
mostly unpopular.
    But as I like to say as a graduate of Brandeis University, 
quoting former Justice Brandeis, ``Sunlight is the best 
disinfectant,'' and we find that, as inspectors general.
    The Council of Inspectors General, or CIGIE, which I chair 
and which Congress created 10 years ago, has played an 
important role in assisting IGs in these oversight efforts.
    CIGIE has fulfilled its mission by vigorously advocating 
for IG independence, which is a perpetual challenge for us in 
the IG community, developing top tier training academies, 
creating quality standards for our work, performing regular 
peer reviews, conducing cross-cutting reviews on issues that 
affect multiple Federal agencies, and implementing a system of 
effective oversight of alleged misconduct within the IG 
community since we assumed responsibility for it from the FBI 
in 2017.
    I know we have talked before, as you noted, Mr. Chairman, 
about this issue and we are certainly committed to continuing 
to work with you and the ranking member on the legislation you 
have introduced to figure and think about how we can further 
transparency efforts.
    In addition, as you noted, in October 2017, we launched 
oversight.gov where the public can go to see all of our work in 
one place. They can also follow us and follow oversight.gov on 
Twitter at #oversight.gov.
    By signing up they will learn when new reports are issued 
across the IG community. We are proud that over 20,000 
followers now on that--on oversight.gov and CIGIE, which is 
more than all but three of the 70 Federal IGs, in just two 
years. So it has proven to be very popular, way to get our 
information out to the public.
    And thanks to the funding provided by Congress we have 
several initiatives underway to try and enhance oversight.gov 
including an open recommendations data base and a website 
service for IGs to try and help them gain greater independence 
from their organizations.
    We also, earlier this summer, launched a first-ever 
whistleblower website as part of oversight.gov in furtherance 
of that effort.
    We have done all of this at CIGIE with all of 23 employees, 
including detailees. That is the total work force at CIGIE to 
deal with training, to deal with all of the other related work 
that we are statutorily told to do including Integrity 
Committee operations.
    We have done this, but we need a better funding mechanism 
because right now the way CIGIE is funded is through the 
voluntary contributions of 73 member organizations, which means 
we don't know what money and funding we are getting until all 
73 of them go through the congressional appropriations process 
for those that are appropriate through Congress, which, as you 
know, is a tedious laborious process that isn't necessarily 
resolved by October 1 of each fiscal year.
    That is a challenge for us and something we look forward to 
talking about with this committee and thinking about how we can 
improve our future operations in that regard.
    We also have concerns about the impact on IG oversight when 
shutdowns occur. During shutdowns, OIG auditors are generally 
furloughed.
    But what happens with already ordered grants and contracts, 
that work continues and so you have situations where tens or 
hundreds of billions of dollars in Federal funding is out 
there, continuing to be used but with no OIG oversight during a 
shutdown period.
    We also have IG vacancy issues. There are currently 12 of 
the 73 IG positions vacant. As you noted, those need to be 
filled and we need those nominations that need to occur to 
happen promptly.
    We have several legislative priorities that my colleague, 
IG Buller, will talk about, one of them being testimonial 
subpoena authority.
    A challenge we have regularly faced is getting witnesses 
who are no longer at the Justice Department to speak to us 
including in whistleblower retaliation and sexual misconduct 
cases.
    Finally, I just want to thank this committee for passing 
legislation that would allow my office to investigate alleged 
misconduct by department attorneys when they act as lawyers in 
that capacity.
    Earlier this year, thanks to this committee's efforts, the 
House passed the Inspector General Access Act, co-sponsored by 
Chairman Cummings, Congressman Richmond, Congressman Hice, and 
Congressman Lynch, and hopefully, that will be given swift 
consideration in the Senate.
    That--I thank you again for your support for our work and 
look forward to answering your questions.
    Mr. Connolly. Thank you, Mr. Horowitz.
    Ms. Buller?

 STATEMENT OF KATHY BULLER, INSPECTOR GENERAL, PEACE CORPS, ON 
BEHALF OF EXECUTIVE DIRECTOR, COUNCIL OF THE INSPECTORS GENERAL 
       ON INTEGRITY AND EFFICIENCY LEGISLATION COMMITTEE

    Ms. Buller. Chairman Connolly, Ranking Member Meadows, and 
distinguished members of the subcommittee, thank you for 
inviting me to appear before you today to discuss the work that 
CIGIE and inspectors general do to promote integrity and 
efficiency.
    As both the inspector general for the Peace Corps and the 
chair of the CIGIE legislation committee, my testimony 
underscores how our community has provided effective oversight 
of the Federal Government not only through our work as 
individual IGs but also through our shared efforts at CIGIE.
    For more than 40 years, IGs have held Federal agencies 
accountable and helped Congress make informed decisions. In my 
33 years in the IG community, we have transformed from a loose 
grouping of IGs into an oversight community that coordinates 
work, shares resources and guidance, and collectively provides 
better oversight.
    I was appointed as IG just months before CIGIE was 
established. As a new IG, I benefited from having CIGIE as a 
resource. In turn, as Legislation Committee chair, I am proud 
to further CIGIE's capacity to support the IG community.
    Since 2009, the Legislation Committee has typified one of 
CIGIE's roles in the community. Each IG has its own 
relationship with Congress.
    However, on community wide issues, we are more effective 
when we speak with one voice and better achieve one of CIGIE's 
core missions to address integrity, economy, and effectiveness 
issues that transcend individual government agencies.
    For example, the IG community came together to help 
Congress pass the Inspector General Empowerment Act of 2016. 
The Act restored inspector general access to all agency 
records, addressing the most significant threat IGs faced to 
our ability to provide independent oversight.
    The Legislation Committee continues to advise Congress on 
future reforms that would benefit government oversight or 
address common challenges facing IGs.
    Each Congress we issue legislative priorities, our top 
reform proposals to strengthen government oversight or resolve 
challenges that IGs face under current law.
    While I have outlined our legislative priorities in my 
written remarks, the three priorities I would like to highlight 
are testimonial subpoena authority, reforming the Program Fraud 
Civil Remedies Act, or PFCRA, and protecting IG security 
vulnerability information.
    First, the inability to compel the testimony of critical 
witnesses can significantly hamper oversight. For example, if a 
Federal employee under investigation for misconduct or 
whistleblower retaliation resigns, most IGs would lack any 
authority to require the now former Federal employee to 
cooperate with the investigation.
    Testimonial subpoena authority would help IGs answer 
critical questions that would otherwise go unanswered and hold 
bad actors accountable.
    The House unanimously supported testimonial subpoena 
authority for IGs during the last two Congresses and the 
initiative has received bipartisan support in the Senate.
    We look forward to further engaging on this issue and hope 
for continued bipartisan support.
    Second, PFCRA's well-studied flaws have prevented agencies 
from holding small-dollar fraudsters accountable. Known as the 
Many False Claims Act, PFCRA has been underused for more than 
30 years.
    Its cumbersome ambiguous requirements place unnecessary 
hurdles on agencies trying to recover from small-dollar fraud 
or false claims.
    For example, the dollar threshold set in 1986 should be 
increased and agencies should be allowed to retain the 
defrauded funds they lost.
    Several straightforward changes to PFCRA would make it the 
viable tool it was intended to be.
    Third, we need to strengthen protection over IT 
vulnerability information under FOIA. Agencies and IGs study 
Federal IT systems and produce detailed reports identifying 
exploitable weaknesses.
    Malicious entities could use that information to infiltrate 
and harm government IT systems. While FOIA protects classified 
and law enforcement information, no single exemption covers all 
IT security vulnerability information.
    A focused narrowly tailored exemption would protect 
information that hackers could use to harm Federal IT systems.
    Finally, I would like to thank the members and staff of 
this subcommittee and the full committee for supporting the IG 
community.
    In particular, two of our priorities were recently 
addressed in legislation that would protect employees of 
subgrantees from whistleblower retaliation and to ensure IG 
independence by requiring congressional notification when an IG 
is placed on non-duty status.
    We look forward to continuing to be an important resource 
to you as you pursue your oversight and legislative work. I 
would be happy to answer any questions.
    Mr. Connolly. Thank you very much.
    Mr. Dahl?

   STATEMENT OF SCOTT DAHL, INSPECTOR GENERAL, DEPARTMENT OF 
LABOR, ON BEHALF OF CHAIRMAN, COUNCIL OF THE INSPECTORS GENERAL 
                  ON INTEGRITY AND EFFICIENCY

    Mr. Dahl. Quis custodiet ipsos custodies, a Latin phrase 
that, roughly, translates to ``Who will watch the watchers,'' 
or as the chairman framed it, ``Who will watch the watchdogs.''
    This timeless question was answered for the inspectors 
general as government watchdogs decades ago with the creation 
of the Integrity Committee, which investigates IGs for 
wrongdoing.
    I want to thank the subcommittee for calling this hearing 
and, in particular, the chairman for his abiding interest in 
protecting this central value of integrity in our community.
    Indeed, integrity is in CIGIE's name. The Integrity 
Committee under CIGIE has worked to improve transparency in our 
processes and accountability in the IG community.
    But we recognize that more needs to be done. We know that 
we must vigilantly attend to these important issues to maintain 
the credibility with our stakeholders, as the chairman noted.
    The purpose of the Integrity Committee is to serve as an 
independent and objective body to evaluate and investigate 
allegations of wrongdoing by IGs, designated senior OIG 
officials, and top officials of the Office of Special Council.
    The Empowerment Act of 2016 transferred IC's leadership and 
program responsibilities from the FBI to CIGIE. As the elected 
committee chair, I have had the responsibility with the 
committee of managing this transition, including, for example, 
enacting new procedures directed at improving accountability 
and timeliness and transparency.
    We have worked to increase transparency by scheduling 
meetings with Members of Congress and their staff to go over 
our work and providing greater detail in our 30-day status 
letters and annual reports to Congress.
    We have also improved transparency with other stakeholders, 
including the public, through a more interactive and 
informative website that makes it easier for the public to 
submit complaints about IGs.
    And we have also conducted multiple training sessions with 
IGs on our--on our policies and procedures. But even with these 
improvements, the committee acknowledges that additional 
progress needs to be made on transparency.
    At the same time, we must assiduously adhere to our 
statutory obligation to protect the identity of confidential 
complainants, witnesses, and whistleblowers.
    We and Congress rely on these individuals for vital 
information and we do not want to discourage them from bringing 
their allegations forward.
    Beyond the Integrity Committee, individual IGs--we have the 
responsibility of promoting accountability and transparency in 
our larger departments and I want to briefly highlight an 
effort that we have recently made in my office to further 
accountability at the Department of Labor.
    In July, we launched the OIG recommendation dashboard on 
our website to highlight the recommendations that have not been 
implemented by the department, some dating back several years.
    We followed the lead of the Department of Transportation 
OIG and others in developing this dashboard. DOL leadership has 
embraced this new tool and the dashboard has substantially 
improved accountability.
    Indeed, since alerting DOL leadership about the dashboard, 
DOL agencies have reduced the number of unimplemented 
recommendations by 44 percent.
    Mr. Chairman, stakeholders look to the Integrity Committee 
to provide fair, timely, and impartial disposition of the 
allegations against senior OIG officials.
    We will continue to work with this subcommittee and other 
committees in Congress to strengthen the integrity of the IG 
community and to improve our processes to be more timely and 
transparent.
    I want to publicly thank my fellow committee members for 
their dedicated service and for the substantial time they 
devote to this--these important work, and I thank you for the 
opportunity to testify.
    Mr. Connolly. Thank you, Mr. Dahl, and we thank you all for 
your testimony.
    I am going to call on the gentleman from California, Mr. 
Khanna. I know you have got another commitment so why don't you 
go first with your five-minute question?
    Mr. Khanna. Thank you, Mr. Chairman. Thank you for 
convening this hearing.
    Mr. Horowitz, as you know, the Whistleblower Protection Act 
does not cover whistleblowers in the intelligence community.
    There is a separate law, the Intelligence Community 
Whistleblower Protection Act, that allows whistleblowers to 
disclose information to the inspector general for the 
intelligence community. Is that correct?
    Mr. Horowitz. Yes.
    Mr. Khanna. And this law is critical because it provides a 
protected channel for whistleblowers in the intelligence 
community to expose unlawful behavior, waste, fraud, or abuse 
even if it involves classified information.
    Is that correct?
    Mr. Horowitz. That is correct.
    Mr. Khanna. And in the past, administrations have always 
complied with sending this information of the complaint over to 
Congress. Some of them have not made a determination to send 
over classified information.
    But is it correct that in the past every administration 
has, within seven days, transferred the complaint itself to 
Congress?
    Mr. Horowitz. I couldn't speak to every single instance. We 
have had one and in that instance it went forward per the 
statutory requirements.
    Mr. Khanna. Is it true that you could forward the complaint 
to Congress without disclosing classified information per the 
statute?
    Mr. Horowitz. Depending on the facts you could. It depends 
on the situation.
    Mr. Khanna. You could redact anything--you certainly could 
redact anything that was classified and put the----
    Mr. Horowitz. In theory, yes.
    Mr. Khanna [continuing]. complaint forward. And is it your 
understanding that the law requires the Director of National 
Intelligence to forward this information to Congress within 
seven days?
    Mr. Horowitz. It is my understanding that the leader that 
gets the report--in my case, it would be the attorney general 
is required to send it. In the DNI circumstance, it would be 
the DNI.
    Mr. Khanna. And do you understand the word ``shall'' in the 
statute going back to Marbury v. Madison as requiring--meaning, 
``shall'' means ``must?'' Is that correct?
    Mr. Horowitz. As a general rule, when I look at a statute 
if I see ``shall'' I understand that to be ``must.''
    Mr. Khanna. Why is it important that inspector generals 
have the ability to make independent decisions about 
whistleblower complaints and have that authority?
    Mr. Horowitz. Well, there are a slew of reasons. But that 
is one of the reasons why we have created this website for 
whistleblowers.
    They provide us with critical information and in the 
intelligence world they need to go through proper channels 
because of the classified information and the statute provides 
that proper channel.
    Mr. Khanna. And why is it important in the intelligence 
community whistleblowers that they have a protected process to 
disclose information to both the inspector general and 
Congress?
    Mr. Horowitz. Precisely because it is classified 
information and my understanding of this statute is it was 
created in response to other disclosures that didn't occur in 
the orderly way and this Congress passed the law to make sure 
whistleblowers had a way that they could legally send 
information and provide information to Congress about matters 
they thought were improper.
    Mr. Khanna. So if there is a whistleblower who has sent 
something to the inspector general and the inspector general 
has sent it to the Director of National Intelligence saying 
that it should be transmitted to Congress, do you see any 
reason for the Director of National Intelligence not to 
transmit the complaint itself to the Congress?
    Mr. Horowitz. I will speak to it in my understanding, since 
I have not dealt directly with the DNI--the Director of 
National Intelligence.
    We would expect the attorney general to follow through on a 
similar matter that we would provide to him in this case if it 
had been him and to follow through on the statute.
    Mr. Khanna. What would you say if the attorney general 
didn't? Just said, I don't believe we need to follow the law 
and I am not going to transmit this to Congress? What would you 
tell the attorney general?
    Mr. Horowitz. In that situation, I would probably figure 
out a way pursuant to the Inspector General Act following the 
law to notify Congress about my concerns of a failure to follow 
the law.
    Mr. Khanna. What do you think should be the consequence for 
an executive branch official who just fails to follow the law? 
Just says, I don't need to follow the law?
    Mr. Horowitz. Well, I spent several years up here on access 
issues that I was having, advocating for a change in the law 
and for some mechanism to move forward and we succeeded 
ultimately in that.
    Obviously, what we are supposed to do as IGs is follow the 
law and get you and our leaderships the information the law 
requires us to get them and then it should be the system that 
works through and follows the law from there forward.
    Mr. Khanna. Thank you. Thank you, Mr. Chairman.
    Mr. Connolly. I thank the gentleman.
    The chair now recognizes the gentleman from Kentucky, Mr. 
Massie, for five minutes.
    Mr. Massie. Thank you, Mr. Chairman.
    Thank you all for the work you do. Mr. Horowitz, you said 
you call balls and strikes whether it is popular or unpopular, 
and more than not often it is unpopular.
    I might say that should be a measurement of how well that 
inspector general is doing is how unpopular the information is 
inside of Washington, DC.
    But the information you provide is crucial outside of 
Washington, DC. and it is appreciated there.
    It is the tenth year of the Council of the Inspectors 
General but it is also the eighteenth year of the war in 
Afghanistan. So I want to highlight some of the work that one 
of the inspectors general has done overseeing the spending 
there for Afghan reconstruction.
    A serious metric of the work of an inspector general might 
be the amount of money that you save the taxpayer and there is 
one program in Afghanistan where we provided UH-60's--these are 
Blackhawk helicopters--and it was a boondoggle, and we have 
already saved $200 million over there because the inspector 
general highlighted that program.
    Another thing I learned from that inspector general that we 
have not been able to fix yet is we have spent $8 billion 
eradicating drugs in Afghanistan--$8 billion on that program 
alone--and they have doubled poppy production.
    These are things that I wouldn't know about. We wouldn't 
have been able to save money here in Congress if it weren't for 
the inspector general there.
    So I want to say whether you think we should still be in 
Afghanistan or not be in Afghanistan, hopefully, we can all 
agree here today that the last person to leave Afghanistan 
shouldn't be a soldier.
    It should be the inspector general if we are spending 
billions of dollars over there. I mean, until we turn the 
lights off over there, we should--do you agree, Mr. Horowitz?
    Mr. Horowitz. I am not sure that the IG for Afghan 
reconstruction would appreciate me saying he should be the last 
person left in Afghanistan.
    [Laughter.]
    Mr. Massie. Okay. An IG. Maybe not Mr. Sopko.
    Mr. Horowitz. But to my point on shutdowns, we should be 
integrated into spending to make sure--because I agree with you 
completely--that that spending is done wisely. The taxpayers 
expect that.
    Mr. Massie. And one of the things--whether this was in 
Congress's wisdom or they just didn't think about this is they 
gave that IG a sort of whole of government, you know, mandate 
where any branch of the government that spends money he can 
investigate if it is being spent on--money there in 
Afghanistan.
    I think that is what has led to some of these good results 
and I hope we do more of that not by accident but by intention.
    But there is a troubling trend that I think we are running 
up against in Afghanistan and that is--you know, this meeting 
is about transparency.
    We are running into a problem with transparency for 
Afghanistan. They no longer report for the Afghan soldiers the 
desertion rates, the amount of territory controlled, the 
population that is under control, the Taliban, the casualties 
of Afghan soldiers, the capabilities of the Afghan military.
    Some of that is just not collected and some of it is now 
classified. So even the IG can't provide it or get it and I 
think that is a troubling trend that I hope your council will 
look into for us over there.
    So switching gears a little bit, I have got a more specific 
question about the DOJ and this is--this is timely, I think, 
because Congress is discussing background checks.
    The last year that there was a report of DOJ prosecutions 
for people who failed a background check was 2010, and I think 
this is information that we need to know and I will tell you 
why I think we need to know it.
    In 2010, the last year we had this information from the 
DOJ, over 72,000 applications were denied. Yet, there were only 
62 charges brought.
    Out of--over 72,000 denials there were only 62 charges 
brought by Federal prosecutors on those denials, and that would 
be falsified information when buying a firearm, possession of 
firearm by a convicted felon. By the way, there were only 11 of 
those out of 72,000.
    So I would like to see this report done again. It was done 
for five years from 2006 to 2010. I think one of the reasons 
they quit doing the report is it actually shows that a lot of 
these denials were false denials and/or we are not prosecuting 
the criminals.
    So I would love to see that report done again. I know you 
can't guarantee that here but do you have any thoughts on that?
    Mr. Horowitz. Let me go back. I believe we have touched on 
this issue in one of our reports on some more recent data. So 
let me check and we can get back in touch with you on what that 
is.
    We have identified in our reports some of the concerns on 
the NICS system as it is managed by the FBI in both regards, 
both false positives and false negatives.
    Mr. Massie. Any employer who had this many false positives 
when doing a background check on employees would be sued out of 
existence and so that is one of the reasons I think we need to 
look into the background check system.
    And I would appreciate maybe the IGs could do that. But 
appreciate your work and I yield. And do you have any comments 
and----
    Mr. Horowitz. No. I was just going to say let me followup 
and see what the work is that we have done on that and get that 
to you.
    Mr. Massie. Thank you all for showing up today and for the 
work you do.
    Mr. Connolly. I thank the gentleman and I associate myself 
with his remarks. I think--especially what has happened in 
Afghanistan and Iraq, and that was a great example where 
special inspectors general have done a great job in trying to 
highlight an enormous amount of money with very little payoff, 
and in some cases negative payoff, apparently.
    The chair now recognizes the gentlelady--Mr. Jordan, did 
you have an intervention? No. Okay.
    The gentlelady from the District of Columbia, Ms. Norton? 
Five minutes.
    Ms. Norton. Thank you very much, Chairman Connolly.
    I want to thank you for this hearing. It may not seem the 
most scintillating of hearings. It may be among our most 
important because of the importance of the IG and CIGIE itself.
    I want to congratulate Mr.--Chairman Horowitz on the 
whistleblower website. I think that will, perhaps more than 
anything else, educate the public on what is possible.
    I am interested in what appears to be a flaw or a vacuum in 
oversight. But let me begin, Chairman Horowitz, Chairman 
Buller, Chairman Dahl, by thanking you for this important work 
that is so important to all the work we do.
    Everybody knows that if there is a IG report, particularly 
considering the polarization in Congress, that is where people 
look to to see what the real facts and real circumstances are.
    So your work becomes more and more important the more the 
body of the Congress itself is and, of course, Congress relies 
very heavily on you--both sides. No matter where we are from, 
we all bow to IG when it comes to reports you submit.
    Now, the gap that we may have discovered is in assuring 
accountability of an IG who may be accused of wrongdoing. Under 
current law, the special counsel may refer a whistleblower to 
an agency head to investigate it.
    That is the way it is always done, and if there is 
substantial likelihood that there may be a violation of law or 
waste, fraud, or abuse, safety--public safety or health 
endangered, the agency must then conduct an investigation of 
the disclosure and then submit that report--I hate to sound 
bureaucratic here but this is how it works--to the--to the 
special counsel who then investigates it to see if the findings 
are reasonable. That is the process.
    Now, given that process, let me cite to you a real-life 
example. The special counsel attempted to refer to CIGIE a 
disclosure of wrongdoing by the Department of Defense IG a few 
years ago--a couple of years ago, actually--and withholding 
information from the secretary of defense--sorry, that the 
secretary of defense had leaked classified information with 
respect to something called the ``Zero Dark Thirty'' movie.
    The special counsel referred the disclosure to CIGIE to 
avoid a potential conflict of interest in having the DOD IG 
investigate the matter.
    As I understand it, CIGIE refused to investigate it, 
claiming that the Inspector General Empowerment Act of 2016 
stripped the Office of Special Counsel of any authority over 
CIGIE itself.
    Now, it looks like there is nobody to investigate or that 
some kind of loophole or vacuum is created if that is the case. 
So let me ask you, all of you, perhaps.
    If the special counsel--if the special counsel has the 
authority to refer disclosures to agencies and require them to 
investigate, is there any reason why we cannot impose the same 
requirement on IGs and, if not, who is to watch the government 
watchdogs if any of them is accused of wrongdoing?
    Mr. Horowitz. So let me take that first and then Mr. Dahl 
can jump in.
    Mr. Connolly. You may answer the question but the 
gentlelady's time is about to expire.
    Mr. Horowitz. The issue becomes a challenging one because 
the Office of Special Counsel, I just want to clarify for those 
watching, it is not the special counsel that people may 
generally be familiar with Mr. Mueller.
    We are talking right now about the Office of Special 
Counsel that exists to deal with whistleblower complaints. 
Their statute currently--as currently written requires reports, 
as you mention, to go to agency heads and even if it involves 
an IG or an employee of the IG we have worked through this 
issue with the current head of the Office of Special Counsel to 
try and arrange a process by which allegations against IGs are 
investigated by either the Integrity Committee in appropriate 
cases or inspectors general as the IG Act provides.
    So we are, in fact, trying to deal with that situation and 
understand the concern. There can't be a gap in who 
investigates alleged wrongdoing, whether it is----
    Ms. Norton. Could I just ask, do you need more legislation? 
Would legislation help in this regard?
    Mr. Horowitz. It might. But so far, we have been able to 
work through these issues.
    Mr. Dahl, myself, have worked with the special counsel, Mr. 
Kerner, and our staffs to put in place or to try and reach an 
MOU so that we can work through the statutory I will call it 
potential tension between the whistleblower statute and the IG 
Act.
    We think we can work it out. We think there is a process. 
We think, frankly, the IG Empowerment Act transferring 
jurisdiction to CIGIE has helped that process so that we can 
manage it as opposed to working through the FBI on that issue.
    And then Mr. Dahl?
    Mr. Connolly. So the gentlelady's time has expired. But I 
assure you there will be legislation in your future. Mr. 
Meadows and I introduced a bill yesterday and our hope is it 
will be marked up in an expeditious fashion, Ms. Norton, and we 
will double check to make sure the issue you have raised has 
been addressed.
    The gentleman from Georgia, Mr. Hice, is recognized for his 
five minutes.
    Mr. Hice. Thank you, Mr. Chairman. Thank you all for being 
here.
    Mr. Horowitz, I know there is probably limited conversation 
you can have on this regarding the FISA report, and I am not 
going to try to go too deeply but just some questions for 
understanding.
    I know this is something the president wants as much as 
possible to be known to the public and I think the American 
people deserve to know how all this debacle began.
    But I also know that a lot of it was classified. Can you--
can you just generally say percentage wise about how much of 
that report is classified?
    Mr. Horowitz. I am not going to get into percentages of 
reports at this point. I will just say as we wrote to our 
oversight committees, including this committee and Ranking 
Member Jordan, we have provided a draft of our report for 
classification marking purposes.
    So what the percentage is precisely will depend on what the 
attorney general and the department and the FBI decide after 
they evaluate it and that is the process it is in right now.
    Mr. Hice. Okay. Are you working with the Department of 
Justice to have some of that declassified?
    Mr. Horowitz. Right now what we have done is meet with the 
folks at the Justice Department and the FBI to tell them what 
we have done so far. They have the draft of the factual 
information that we have developed.
    We have talked through the classification issues with them. 
But it is ultimately up to them to decide what is going to be 
marked and how it is going to be marked or how it is not going 
to be marked.
    That is normal process. That is how it would occur. We may 
weigh in once we see it back as to what our views are----
    Mr. Hice. Okay.
    Mr. Horowitz [continuing]. as to any disagreements that 
might----
    Mr. Hice. So there could be a point that you would weigh in 
and----
    Mr. Horowitz. That is correct.
    Mr. Hice. Okay.
    Mr. Horowitz. That is the usual process. These are--these 
rarely go in a one straight line process.
    Mr. Hice. Okay. Gotcha. Regarding attorney John Durham, are 
you all in any discussions about what he is finding and what 
you have found?
    Mr. Horowitz. I am going to defer to him and the attorney 
general on that issue as to what they are doing. I have had 
communications with him but it is really a very separate entity 
that is----
    Mr. Hice. Okay.
    Mr. Horowitz. He is working under the direction of the 
attorney general. I am, obviously, independent.
    Mr. Hice. Do you know if he has found any of the same 
concerns that you were concerned about?
    Mr. Horowitz. You would have to ask him on what he has 
found. I am not in a position to speak for him.
    Mr. Hice. Okay. Well, let us go over to the Comey report 
that did come out, if we can. You had mentioned that--I mean, 
obviously, he failed in some of his responsibilities to protect 
some sensitive information and you referred to his actions at 
one point as a dangerous example.
    Can you elaborate a little bit of what you meant by that 
term that he set a dangerous example?
    Mr. Horowitz. We were particularly focused on the providing 
of information in the memo that was really a recording of his 
meeting--investigative meeting to a journalist to put in the 
newspaper.
    That was not classified information. That particular memo 
didn't have classified information. Our concern there and why 
we referred to it that way is we have instances in the--my 
office.
    I have had those examples of Federal prosecutors in 
corruption cases previously where the law enforcement agents 
you are working with or who have worked on a matter may think a 
decision was not made for the right reasons and our concern was 
empowering FBI directors or, frankly, any FBI employee or other 
law enforcement official with the authority to decide that they 
are not going to follow established norms and procedures 
because, in their view, they have made a judgment that the 
individuals they are dealing with can't be trusted.
    Mr. Hice. So the fact that he was in the highest position 
of the FBI would add to your level of concern?
    Mr. Horowitz. Correct.
    Mr. Hice. Now, you actually referred criminal prosecution 
to the Department of Justice for Comey, correct?
    Mr. Horowitz. We are required by the IG Act to send 
information that we have identified that could plausibly be 
criminal to the department and we----
    Mr. Hice. That is pretty monumental. Do you know of any FBI 
director who in the past has ever had a criminal prosecution 
referral?
    Mr. Horowitz. I wouldn't know as I sit here today.
    Mr. Hice. Or any other head of any Federal agency?
    Mr. Horowitz. I do, actually.
    Mr. Hice. Okay.
    Mr. Horowitz. So I--but I will keep that----
    Mr. Hice. All right. And the same type referral applied to 
McCabe as well, right?
    Mr. Horowitz. Same issue. Right. The IG Act requires me to 
expeditiously report to the attorney general when I see 
evidence that could be considered criminal and we follow the 
law.
    Mr. Hice. Okay. Thank you very much.
    Mr. Connolly. I thank the gentleman.
    The gentleman from Maryland, Mr. Raskin, is recognized for 
his five minutes.
    Mr. Raskin. Mr. Chairman, thank you.
    Inspector General Horowitz, the committee is investigating 
efforts by the Department of Education to interfere with the 
integrity of its inspector general office and its operations.
    On December 17 last year, Education Committee Chairman 
Bobby Scott requested that the IG examine education--at the 
Department of Education examine the department's decision to 
restore recognition of the accreditor for several failed for-
profit universities and the Education Department was apparently 
unhappy with the IG's subsequent decision to conduct this 
investigation.
    The leadership was apparently so perturbed and threatened 
by the IG investigation that they tried to shut it down.
    On January 3 of 2019, Deputy Secretary of Education 
Mitchell Zais wrote a letter to the Acting Inspector General, 
Sandra Bruce, asking her to drop the investigation and if she 
refused, demanding that she change its scope by having it take 
a deeper historical dive into the Obama Administration.
    When Ms. Bruce responded to the department's request, 
naturally, by asserting her institutional independence as the 
inspector general, the deputy secretary ordered her to step 
down from the position.
    The department apparently planned to replace her as 
independent IG with an agency insider, the deputy general 
counsel currently at the department.
    Were these actions by the Department of Education 
appropriate?
    Mr. Horowitz. No, we were--I was very concerned about it 
when I heard about it from Acting IG Bruce and I worked with 
her to address the issue and which successfully occurred.
    Mr. Raskin. Have we seen similar kinds of assaults on the 
independence and integrity of inspector generals in other 
departments?
    Mr. Horowitz. Frankly, over time there have been. As I 
mention in my opening, it is a perpetual challenge for us. 
Agencies always--aren't always enamored with our oversight 
efforts.
    Mr. Raskin. Was there anything wrong with or is there 
anything wrong with committees in Congress or Members of 
Congress writing to inspectors generals urging them to 
investigate this or that alleged misconduct?
    Mr. Horowitz. Not at all. I get those pretty frequently.
    Mr. Raskin. After this committee urged the White House to 
reverse course in firing Ms. Bruce, the department reinstated 
her as the acting inspector general.
    But the department is refusing to make individuals 
available for interviews about how and why the decision was 
made to fire her in the first place.
    Ms. Bruce has been serving as the acting IG for over nine 
months. President Trump has still not appointed an individual 
to fill this position on a permanent basis.
    Mr. Horowitz, when you testified before this committee last 
November there were 14 vacant IG positions and 12 of those were 
Presidentially appointed Senate-confirmed positions.
    As you stated in your testimony, there are still 12 
vacancies. Why is this a problem for the government?
    Mr. Horowitz. Frankly, and again, this has been a perpetual 
challenge for us, IGs are not a priority--don't seem to be a 
priority, I should say--when considering vacancies in the 
government and that is true, frankly, when nominations--in 
terms of nominating people and also, frankly, getting them 
confirmed promptly.
    Mr. Raskin. And what is the impact of all of these 
vacancies on public policy?
    Mr. Horowitz. It is a significant problem. Acting IGs like 
Acting IG Bruce do an outstanding job. There was a 15-month 
vacancy at the DOJ between Mr. Fine leaving and me getting the 
position, and the acting IG, who was the deputy, did a fine 
job.
    But you don't have the ability to push back when that 
independence issue comes up in quite the same way. I am Senate 
confirmed. Ms. Bruce's predecessor was Senate confirmed.
    There is a certain authority that comes with that when you 
come before Congress or when you deal with Congress and when 
you deal with your leadership because they know you are there.
    They know they can't remove you. It has to be and it can 
only be the president. The attorney general has no authority of 
me. The secretary of education had no authority over Ms. 
Bruce's predecessor. That is a big difference.
    Mr. Raskin. The president hasn't even nominated a candidate 
for nine of these positions including the Departments of 
Education, Defense, Treasury, HHS, and the EPA.
    The Department of Defense with a budget of more than $700 
billion has not had a permanent IG since January 2016. What can 
be done to put this on the radar?
    Mr. Horowitz. Well, one of the things that was done is last 
week on the Senate side the Homeland Security Committee there, 
which handles IG nominations, wrote a bipartisan letter of the 
entire committee--I think it was the entire committee--it was a 
bipartisan letter to the president saying, you need to nominate 
people and we in the Senate need to do a better job moving 
those nominations.
    Both of those problems have existed and they have been 
existing, frankly, for many years. It has been something in 
four years as chair of this committee--as chair of CIGIE. I 
have talked about it with the president personally in the prior 
administration, in this administration. We just got an Interior 
IG confirmed finally after almost eight years of vacancies.
    Mr. Raskin. Well, I agree with your sense of urgency about 
the importance of this issue and I think we stand ready in this 
committee to help however----
    Mr. Connolly. I thank the gentleman, and I certainly agree 
we need to move these confirmations in the Senate. In fact, 
maybe if we spent more time confirming IGs instead of Federal 
judges we would all be better off.
    [Laughter.]
    Mr. Meadows. If the gentleman would----
    Mr. Connolly. Of course.
    Mr. Meadows. Perhaps, since it is independent, maybe we 
work on a bipartisan piece of legislation to make it where it 
is not Senate confirmed. I mean, actually, those appointments--
if we could truly make it where it is not Senate confirmed move 
it through where you have the IG community. Let us at least see 
if we can work on it.
    Mr. Connolly. Fair enough.
    The gentleman from Florida, Mr. Steube, is recognized for 
his five minutes.
    Mr. Steube. Thank you, Mr. Chairman.
    And, Mr. Horowitz, I am going to kind of pick up where Mr. 
Hice left off. He was asking you about the fact that Comey had 
been referred criminally by your report, and that is correct?
    Mr. Horowitz. That is correct.
    Mr. Steube. You also referred Andy McCabe for Federal 
prosecution. Is that correct?
    Mr. Horowitz. I was--we made the same referral pursuant to 
the IG Act as with Mr. Comey as we do whenever that provision 
applies.
    Mr. Steube. And that is a criminal referral?
    Mr. Horowitz. That is as the IG Act requires us to do, yes.
    Mr. Steube. And so was McCabe the acting director when you 
referred him?
    Mr. Horowitz. I am not going to get into the precise 
timing, actually, of it. But the answer would be no--actually, 
I can say that he--by the time the issue came to be was after 
August 1, which is I think the August 1 of 2017, which is I 
think the date of Director Wray's installation.
    Mr. Steube. Okay. And why did you refer him for criminal 
prosecution--McCabe? Why was he referred?
    Mr. Horowitz. We made a--as the public report--I will still 
to what is public. The public report--we found a lack of 
candor, which means we didn't find that he provided us truthful 
information and when we made a determination under Section 4 of 
the IG Act that we thought that had occurred we were required 
by the law to report it expeditiously to the attorney general.
    Mr. Steube. So, in other words, he lied. I mean, you say 
lack of candor.
    Mr. Horowitz. We make a lack of candor finding. I am going 
to defer to the prosecutors. In a report last year we 
criticized the FBI director for usurping the authority of the 
attorney general to make prosecutorial decisions. I am not 
going to do that today.
    Mr. Steube. Okay. And you also found that McCabe failed to 
safeguard FBI information. Is that correct?
    Mr. Horowitz. Well, what we found was, just to be clear, 
that he had provided information to or authorized a employee to 
provide information to a reporter that was FBI information.
    Mr. Steube. So we have two heads of the FBI--one director, 
one acting director--we think close around to the timeline both 
referred for criminal prosecution. Is that--I am saying that 
correctly?
    Mr. Horowitz. Pursuant to the IG Act, we made referrals in 
both instances.
    Mr. Steube. So I want to point out how profound that is for 
those sitting at home and for the American people that we have 
two back to back heads of the FBI both referred for criminal 
prosecution.
    Both of these heads of the FBI failed to safeguard 
sensitive FBI information. Is that correct?
    Mr. Horowitz. In both instances, they disclosed to 
reporters information that was protected FBI information--
sensitive law enforcement.
    Mr. Steube. And I want to move quickly to the latest report 
on Comey and I am going to just read from Page 52.
    ``In this analysis section, we address whether Comey's 
actions violated department and FBI policies or the terms of 
Comey's FBI employment agreement. We determined that several of 
his actions did. We conclude that the memos were official FBI 
records rather than Comey's personal documents.
    Accordingly, after his removal as director Comey violated 
applicable policies and his employment agreement by failing to 
either surrender his copies of Memos 2, 4, 6, and 7 to the FBI 
or seek authorization to retain them.
    By releasing official FBI information records to third 
parties without authorization and by failing to immediately 
alert the FBI about his disclosures to his personal attorneys 
once he became aware in June 2017 that Memo 2 contained words 
that were classified at the confidential level.''
    Did I read that accurately?
    Mr. Horowitz. I don't have it in front of me but it 
certainly sounds like that is accurate.
    Mr. Steube. So you previously faulted the FBI director in 
your report of last year. In your report on Comey's memos, you 
wrote, ``We have previously faulted Comey for acting 
unilaterally and inconsistent with department policy.'' That 
was the Clinton email IG report?
    Mr. Horowitz. Correct.
    Mr. Steube. In your report on the FBI's investigation of 
the Clinton emails you wrote, in quote, ``We found that it was 
extraordinary and insubordinate for Comey to conceal his 
intentions from his superiors, the acting--the attorney general 
and deputy attorney general for the admitted purpose of 
preventing them from telling him not to make the statement and 
to instruct his subordinates in the FBI to do the same.'' Is 
that correct?
    Mr. Horowitz. Yes, I don't have the language in front of me 
but----
    Mr. Steube. It is Page----
    Mr. Horowitz [continuing]. certainly--I certainly recall 
that generally.
    Mr. Steube. It is Clinton Email IG Report Page 241.
    You used the words extraordinary and insubordinate. You are 
not exactly someone who would make such bold characterizations.
    In that--in that case, you found his misconduct merited 
these conclusions?
    Mr. Horowitz. Yes.
    Mr. Steube. You found Comey's conduct this year just as 
troubling, correct?
    Mr. Horowitz. We found it troubling. I am not going to make 
a relative judgment as to which was more troubling.
    Mr. Steube. Well, you wrote, and I quote, ``Comey's 
unauthorized disclosure of sensitive law enforcement 
information about the Flynn investigation merits similar 
criticism,'' Page 61, Comey memo report.
    Mr. Horowitz. Correct. Merits similar criticism. Agreed.
    Mr. Steube. I want to thank you for your time here today 
and I just think it is beholden to the American people that 
they get to read this information and it becomes public.
    Mr. Connolly. I thank the gentleman, and perfect timing. 
Congratulations.
    Mr. Steube. I tried to wrap it up there right at the end.
    Mr. Connolly. You did it perfectly.
    Mr. Jordan, did you wish to be recognized?
    Mr. Jordan. Unless the ranking member wanted to go----
    Mr. Connolly. He is deferring to you.
    Mr. Jordan. Okay. Thank you, Mr. Chairman.
    Mr. Horowitz, let me pick up right where the gentleman from 
Florida was.
    I appreciate the letter you sent to the chairman and 
ranking member last Friday on the upcoming FISA report that is 
now with the attorney general.
    But let me--let me go first to what Mr. Steube just talked 
about. Have you been asked to testify by the chairman--by 
Chairman Cummings or Chairman Nadler about the Comey IG report 
you released three weeks ago?
    Mr. Horowitz. No, I have not.
    Mr. Jordan. Have you been approached at all by the chairman 
of those respective committees?
    Mr. Horowitz. Personally, I have not. I can check with 
anybody else in my organization. But I am not aware of any.
    Mr. Jordan. Have they even asked you about it?
    Mr. Horowitz. Oh, I am sure they have asked about it. I am 
sorry--talking about scheduling about a hearing.
    Mr. Jordan. But, I mean, asked about you--asked about you 
testifying and answering questions about that specific report.
    Mr. Horowitz. About a hearing I don't believe there have 
been discussions.
    Mr. Jordan. No hearing?
    Have you had any discussions with Chairman Cummings or 
Chairman Nadler about the upcoming FISA report, particularly 
subsequent to this letter or even before this letter, about the 
FISA report when you might testify in front of either 
committee?
    Mr. Horowitz. We haven't had, to my knowledge, discussions 
about testimony or a hearing.
    Mr. Jordan. But you would----
    Mr. Horowitz. We had a discussion generally about the 
report and timing but not about----
    Mr. Jordan. I think in your--in your letter you pointed out 
you talked to over a hundred interviews, over a million records 
your team examined.
    You spent a lot of time on this report. This is pretty 
significant. You would anticipate testifying in front of both 
the House Oversight Committee, which has jurisdiction over the 
inspector generals, and the House Judiciary Committee. Is that 
right?
    Mr. Horowitz. I guess I am--I would say as to any of my 
reports I always am available and willing to testify. I am not 
sure I would want to advocate for being in four hearings--two 
here and two on the Senate side. So----
    Mr. Jordan. Well, we combined them last year--a year and a 
half ago on one.
    Mr. Horowitz. Yes.
    Mr. Jordan. We did that. So all I know is I think, as Mr. 
Steube said, this is important information and, frankly, the 
American people would like to see it.
    Let me go, if I could, to the recent IG report about Mr. 
Comey's leaked memos and I want to--I want to read from it. I 
am talking about on Page 17 of your report, January 7, 2017, 
Memo Number 1, when you say Comey first--Comey's first one-on-
one meeting with President Trump occurred on January 6, 2017. 
Is that right?
    Mr. Horowitz. That is right.
    Mr. Jordan. And before briefing President--I am reading 
from your report--``Before briefing President-Elect Trump, Mr. 
Comey met with senior leaders at the FBI--Jim Rybicki, Andy 
McCabe, Jim Baker, and supervisors of the FBI's 
investigation.'' Is that right?
    Mr. Horowitz. Again, I don't have it in front of me but 
that is my recollection.
    Mr. Jordan. Yes. So he has a pre-meeting. They are going to 
go up to brief President-Elect Trump----
    Mr. Horowitz. Right.
    Mr. Jordan [continuing]. January 6, 2017. So it is 
President-Elect Trump at the time. They have a pre-meeting to 
figure out how this is going to go and, actually, even more of 
a pre-meeting they have with Mr. Clapper and Mr. Brennan to 
figure out how exactly the briefing for the president-elect is 
going to happen. Is that right?
    Mr. Horowitz. And who is going to do it and----
    Mr. Jordan. And who is going to do what. Right. And they 
break it into two parts. All of them brief the president-elect 
on general assessment, intelligence assessment, the ICA. And 
then they all leave and Mr. Comey sits down with the president. 
Is that right?
    Mr. Horowitz. That is my recollection, yes.
    Mr. Jordan. So Mr. Comey sits down with President-Elect 
Trump and talks to him about what?
    Mr. Horowitz. Again, I don't have the report in front of 
me. But my recollection is what we were told is it is about 
the--what has come to be known as the salacious and unverified 
reporting about certain events in Moscow.
    Mr. Jordan. Witnesses interviewed by the OIG also said they 
discussed Trump's potential responses to being told about the 
salacious information in the dossier, including that President 
Trump might make statements about or provide information of 
value to a pending Russia interference investigation. Is that 
right?
    Mr. Horowitz. That is my recollection.
    Mr. Jordan. Yes. So Comey stuck around and briefed him on 
the dossier----
    Mr. Horowitz. Well, on that--on that one piece is my 
recollection.
    Mr. Jordan. Understand. Understand.
    So what I am interested in is, is we always thought that 
this meeting was to give the president the intelligence 
assessment and fill him in and give him a briefing. He is 
president-elect.
    But it now looks like, based on what you wrote at the 
bottom of Page 17, that they included trying to get information 
on the pending Russia interference.
    So it wasn't just information going one way. They were 
actually trying to get information from the president as well. 
Is that right?
    Mr. Horowitz. That is what we have reported.
    Mr. Jordan. That is different. That is different. That is 
something I don't think we knew before. Multiple FBI witnesses 
recall agreeing ahead of time that Comey should memorialize 
this event after it happens, right?
    Mr. Horowitz. Right.
    Mr. Jordan. So he gets in the car on the way home and he 
immediately starts memorializing what took place. It is 
interesting.
    One of the things that he said, the reason they did this 
was because they thought the president-elect might misrepresent 
what happened in the encounter. Remember that from the report?
    Mr. Horowitz. Vaguely.
    Mr. Jordan. Yes.
    Mr. Horowitz. Again, I would have to----
    Mr. Jordan. It says it on Page 18. I think that is--that is 
amazing to me because the irony was the only one 
misrepresenting anything, it seems to me, was Mr. Comey because 
all the while he is trying to get information from the 
president about the pending investigation he has been telling 
the president he is not even under investigation.
    Mr. Connolly. I thank the gentleman.
    If, Mr. Horowitz, do you want to respond?
    Mr. Horowitz. No, I have no--nothing further to say. I 
would stand by our report.
    Mr. Jordan. Could I ask one question, Mr. Chairman?
    Mr. Connolly. Yes.
    Mr. Jordan. Mr. Horowitz, was President Trump under 
investigation at the time that this all happened on January 6?
    Mr. Horowitz. I don't know that I am in a position to say 
one way or another. I have read what the memos say and what Mr. 
Comey in the memos reported he represented to the president 
that the president was not or the president-elect at the time 
had not----
    Mr. Jordan. He had, in fact, been told by the very guy who 
had to memorialize this conversation and was trying to get 
information from the president that he wasn't in fact under 
investigation by that very individual.
    Mr. Connolly. I thank----
    Mr. Horowitz. And all I can speak to is what is in the 
memo.
    Mr. Jordan. What he said. I understand.
    Mr. Horowitz. I don't know what was said. I don't know 
independently what was going on in the investigation at that 
time.
    Mr. Connolly. Thank you. I thank the gentleman.
    The distinguished ranking member is recognized for his five 
minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Horowitz, I am going to followup a little bit on where 
Mr. Jordan just said. But before I do that, I want to say this.
    The chairman and I were talking about we appreciate your 
professionalism. The fact that he can't influence you and the 
fact that I can't influence you may frustrate both of us. But 
we both appreciate the fact that we can't actually affect your 
independence, and here is--if your IG community at DOJ shared 
information with the media the way that you found in your 
inspections would that undermine your overall objective in 
terms of sharing information with the media?
    Mr. Horowitz. If anyone on my staff did that----
    Mr. Meadows. Yes.
    Mr. Horowitz [continuing]. there would be serious 
consequences because it would have a significant effect on our 
work.
    Mr. Meadows. And so wouldn't you draw the same conclusion 
that sharing information under ongoing investigations within 
the DOJ and FBI is not a practice that we should actually 
embrace?
    Mr. Horowitz. Absolutely.
    Mr. Meadows. Did you find that in some of your inspector 
generals' report on what has already been published with 
relationship to Director James Comey?
    Mr. Horowitz. We did.
    Mr. Meadows. Multiple times?
    Mr. Horowitz. Well, we have in that report, the one 
instance where it occurred through Mr. Richman to the press.
    Mr. Meadows. All right. Do you--once you have a report that 
is out and once we have read the report, do you go back and 
look at congressional testimony to correlate between what you 
were told under oath by witnesses versus testimony that has 
been given to Congress to make sure that those two come 
together?
    Mr. Horowitz. If we are aware of it and it relates directly 
to it, yes. But, obviously, we are not up to date on all the 
different testimoneys that occurred. So usually we rely on the 
referrals coming in from Congress.
    Mr. Meadows. Right. And so that is where I am kind of going 
to this because we have taken now your report and we have put 
it side by side congressional testimony that James Comey made 
before the joint Oversight and Judiciary hearing, and I am 
finding just a number of irregularities.
    So would it be appropriate if Chairman--I mean, Ranking 
Member Jordan and I were to refer those inconsistencies to the 
IG and if we did that would the IG look at those 
inconsistencies?
    Mr. Horowitz. It is certainly appropriate for us to get a 
referral about a then employee of the department, which is, I 
think, the hearing you are probably referencing, and then we 
would assess it and, as you indicated before, we would make an 
independent assessment of whether it is appropriate for----
    Mr. Meadows. Well, I will give you one example. Mr. Gowdy 
was asking, said, did you initiate an obstruction of justice 
investigation based on what the president said. It was a very 
clear question. Mr. Comey said, I don't think so. I don't 
recall doing that so I don't think so.
    However, on Page 13 of your IG's report it said that Comey 
purposely leaked the memo so that they could have a special 
counsel appointed to investigate obstruction of justice. So two 
of those cannot be true. They are at opposite dynamics in terms 
of what they are constructing. And we have dozens of examples 
where that has happened. Is that something that would be 
important for the American people to know and for you to look 
into?
    Mr. Horowitz. I guess I would say as in any situation we 
would want to get the referral, the testimony, and so we could 
make----
    Mr. Meadows. So we will be referring those inconsistencies 
to you today, Mr. Horowitz, and I think that it is important 
that the American people get to look at this.
    My understanding is from reports that--and from your letter 
that you have officially given the FISA abuse work that you 
have done over to be reviewed by the appropriate parties at 
DOJ.
    Is that correct?
    Mr. Horowitz. So we have given our factual findings to the 
department for their marking. What we then do once we get it 
back, whether we have to go back and forth on the markings is 
one issue.
    Mr. Meadows. Right.
    Mr. Horowitz. Once those are final we then take that and 
try and write our public report from that.
    Mr. Meadows. Right.
    Mr. Horowitz. Because we want to make as much of this 
public, sometimes we will have to either redact information or 
write around it. But that would be the next stage after this. 
So we are not quite final yet.
    Mr. Meadows. So--right. So at this point, can you rule out 
the fact that there will be any criminal referrals as it 
relates to this new FISA abuse report that is coming out? Can 
you rule that out?
    Mr. Horowitz. I am not going to speak to that issue one way 
or the other.
    Mr. Meadows. All right. I yield back.
    Mr. Connolly. I thank the gentleman.
    The gentleman from Wisconsin, Mr. Grothman, is recognized 
for five minutes.
    Mr. Grothman. Yes. For Mr. Horowitz, I want to direct your 
attention to conclusions involving Comey failing to safeguard 
the FBI's Flynn investigation, which is going on at the time.
    You wrote Comey's senior--closest senior FBI advisors were 
shocked when they learned the former FBI director instructed 
the release of his memo containing information about the 
ongoing FBI investigation, right?
    Mr. Horowitz. That is correct.
    Mr. Grothman. What specifically did they say to your 
office?
    Mr. Horowitz. I don't have the report in front of me but I 
remember them saying words like shocked, surprised--those kinds 
of words--when they learned that he had released the 
information through Mr. Richman to a reporter.
    Mr. Grothman. And they were unsolicited reactions?
    Mr. Horowitz. Yes. They were during testimony under oath 
that were recorded.
    Mr. Grothman. Why do you think they were shocked or 
stunned?
    Mr. Horowitz. Well, it was completely inconsistent, as we 
wrote in the report, with department policy and how we expect 
and I think they expect FBI employees to handle law enforcement 
information.
    Mr. Grothman. Okay. One advisor used the term disappointed 
to describe Comey's misconduct. Can you explain why they would 
be disappointed in the FBI director?
    Mr. Horowitz. Well, I am not going to speak to what was in 
their mind when they said the words. But I can say, again, I 
think there is a general understanding in the department and 
within the FBI that when you have law enforcement information 
you don't disclose it to the press when there is an ongoing 
criminal investigation, which there was at the time.
    Mr. Grothman. Okay. Comey discussed or showed contents of 
the memos with people outside the FBI, correct?
    Mr. Horowitz. Correct.
    Mr. Grothman. Okay. Then Acting DEA Administrator Chuck 
Rosenberg saw the Comey memo, right?
    Mr. Horowitz. I don't have the report in front of me. I 
think that is correct. I think they either talked about it or 
he showed it to him.
    Mr. Grothman. Okay. I will tell you what I am going to do. 
I right now have a vote in another committee so I am going to 
yield the rest of my time to Congressman Jordan.
    Mr. Jordan. I thank--I thank the gentleman for yielding.
    Mr. Connolly. The gentleman is recognized.
    Mr. Jordan. Mr. Horowitz, I want to go back to Page 17, 
where we were a few minutes ago.
    Before briefing President-Elect Trump, Comey met with 
senior leaders of the FBI including Chief of Staff Jim Rybicki, 
then FBI Deputy Director Andy McCabe, then FBI General Counsel 
Jim Baker, and the supervisors of the FBI's investigation of 
the Russian interference in the 2016 Presidential election.
    So he meets with his key players, key team--the people 
heading the investigation--and the top people at the FBI. Goes 
up to Trump Tower, has the meeting--his one-on-one meeting with 
the president where he briefs him on the dossier.
    That meeting is done. He immediately comes back out and 
starts recording what took place, memorializing the 
conversation with the president-elect, right?
    Mr. Horowitz. Correct.
    Mr. Jordan. Multiple FBI witnesses recalled agreeing ahead 
of time that Comey should memorialize this meeting. So the same 
people that he met with in the pre-meeting said, hey, when you 
go talk with the president-elect, soon as you come out we are 
going to have a secure laptop. You write it all down.
    Mr. Horowitz. Right.
    Mr. Jordan. And you need to write it all down because we 
think the president-elect might misrepresent something later 
on, right?
    Mr. Horowitz. If I recall correctly, that was one of the 
reasons.
    Mr. Jordan. One of the reasons. All right.
    Even though the very guy who was in there giving the 
briefing is misrepresenting a fundamental fact to the president 
of the United States, telling him he is not under investigation 
when they are actually trying to set the president up, in my 
opinion--get information from the president.
    So he goes back out, he memorializes this, and then you say 
in the next paragraph down, he memorialized Memo 1 and he had 
it that way until he arrived at FBI's New York field office 
where Comey gave a quick download of his conversation with the 
very same people who he had the pre-meeting with--Mr. Rybicki, 
Mr. McCabe, Mr. Baker, and supervisors of the FBI ``Crossfire 
Hurricane'' investigation.
    Is that all accurate?
    Mr. Horowitz. That is my recollection.
    Mr. Jordan. Okay. So you used three names twice--Rybicki, 
McCabe, and Baker--and then instead of saying other names you 
say supervisors. Are those supervisors the people who I suspect 
they are, the people who ran the ``Crossfire Hurricane''? Are 
those supervisors Peter Strzok and Lisa Page?
    Mr. Horowitz. I don't recall as I sit here. I would have to 
go back and look at it, and if we can--with all of these issues 
we have to look at the Privacy Act and other laws to see what 
we can do.
    But I will go back and check. I am not sure that is the 
case. So let me go back and check.
    Mr. Jordan. Could it be a bigger number than those two? If 
it is not those two it could be other two? It could be----
    Mr. Horowitz. Or it could be others.
    Mr. Jordan. It could be others as well or could be----
    Mr. Horowitz. Yes.
    Mr. Jordan [continuing]. those two plus others?
    Mr. Horowitz. I don't know, as I sit here, who were those 
individuals.
    Mr. Jordan. Is it likely that Peter Strzok is one and 
knowing that he was the guy who led the ``Crossfire Hurricane'' 
investigation?
    Mr. Horowitz. I actually have no idea if that is likely or 
not because I am not sure that is entirely accurate that--your 
reference to what his role was at various times.
    Mr. Jordan. Okay.
    Mr. Connolly. I thank the gentleman. Thank you for your 
responsiveness, Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Horowitz.
    Mr. Connolly. The chair now recognizes himself for his five 
minutes and I am going to ask questions quickly and ask you to 
answer quickly so I can fit them all in.
    I am going to start with you, Ms. Buller, for a change. 
Have you had difficulty at EPA--I mean, at Peace Corps with 
your agency in terms of access to information and a 
responsiveness to requests made?
    Ms. Buller. Access--we have had a couple of little issues 
but they have been worked through. We have had other issues, 
however, in dealing with general counsel interpretations of our 
policy that tried to limit the people who can come to us to 
report things and also try to limit the way that we conduct our 
criminal investigations relating to volunteer drug use.
    Mr. Connolly. And what is your redress? When that happens 
what can you do?
    Ms. Buller. We have so far been working with the agency and 
to try to resolve the issue and, hopefully, we can do that. But 
as with the access issue, we do understand that we can come to 
Congress if we--if we----
    Mr. Connolly. Please do.
    Ms. Buller. Thank you.
    Mr. Connolly. Because I think on a bipartisan basis we are 
committed to making sure you can do your job.
    Mr. Horowitz, one of the things that has come to our 
attention is, you know, allegations of wrongdoing and sexual 
harassment within the Federal judiciary.
    And what we discovered was, however, the Administrative 
Office of the Courts does not have an IG. Does--as chairman of 
CIGIE, do you all have an opinion about whether we ought to 
establish an IG for the Administrative Office of the Federal 
Courts of the United States?
    Mr. Horowitz. I am not going to weigh in on what should 
happen with another branch of government because, obviously, it 
raises various kinds of----
    Mr. Connolly. How very careful.
    Mr. Horowitz. But I will say that, speaking of our own work 
in the department, we have played a very important role in 
addressing sexual harassment, sexual misconduct in the Justice 
Department and I am not confident that would have occurred in 
the absence of an inspector general.
    Mr. Connolly. Right. And so, therefore, inferentially one 
would conclude from that statement that we all benefit from 
having IGs and presumably another branch of government might 
benefit, too?
    Mr. Horowitz. I think there is a value in having 
independent oversight in whatever form it takes and it has been 
my concern----
    Mr. Connolly. Right.
    Mr. Horowitz [continuing]. and why I appreciate the issues 
of prosecutorial----
    Mr. Connolly. I would just say to my friend, the 
distinguished ranking member of the subcommittee, I think this 
is an issue we want to look into because I think the 
legislative branch could benefit just like the--I mean, the 
judicial branch could benefit just like both the executive and 
legislative branches have benefited.
    Mr. Dahl, transparency--my own experience and that of a 
former colleague of this committee was not felicitous with 
respect to transparency and communication when we presented to 
CIGIE an issue of professional behavior and ethical behavior.
    And putting aside who and the merits, I am focused on 
process. What has happened--I mean, you indicated in your 
testimony you want to protect whistleblowers and people who 
come forward and so forth, and we agree.
    But on the other hand, we also want to make sure that a 
legitimate complaint or allegation brought to you is also 
respectfully managed and adjudicated as opposed to we found no 
merit--thanks for calling us.
    Can you address that a little bit in terms of what has 
happened in the last four or five years to improve how we 
handle legitimate concerns brought to your attention? Because 
this is a delicate matter, investigating a colleague, and you 
are a small community.
    We understand that. We have that problem up here, trying to 
look at the ethics of a colleague. Very difficult and very 
painful.
    But if you don't do it, who will? And so I am interested in 
not how you proceed in the investigation but once it is 
completed or judgment is made, how do you dispose of it with 
respect to the complainant?
    Mr. Dahl. We share your--that this is a legitimate interest 
for the complainant, and the transparency has to be there, as 
the chairman noted, for us to have that credibility with the 
public and with Congress.
    And so we have endeavored in our policies and procedures to 
build into those a communication mechanism both to Congress--
certainly, it is in the Empowerment Act now--that we would 
inform Congress and at Congress's request we can provide that 
kind of level of detail to the complainants.
    We look carefully at those and identify what information we 
can relate to the--to the complainant at the same time 
protecting, as I said before, the confidentiality of the 
whistleblower.
    Mr. Connolly. And if I may interrupt, the other thing you 
are trying to protect--and I understand that and I think we are 
totally on board with you--is protecting someone's innocent 
reputation.
    Anyone can make a complaint about anything at any time. 
That doesn't mean it is legit and it certainly means we need to 
be careful with that kind of thing because raw data about 
complaints does not tell you anything and there may not be any 
merit to it. We want to respect that.
    But on the other hand, as I said, where a legitimate 
complaint about behavior by an IG comes to your attention we 
have got to have confidence that it has been carefully vetted 
and adjudicated and a rational explanation that is more than, 
we looked at it and there is nothing there, certainly, when it 
comes to Congress.
    But even somebody within an agency or the public, as you 
pointed out, I think is entitled to more than that kind of 
dismissive answer.
    Mr. Horowitz--and then my time is up--did you want to 
comment?
    Mr. Horowitz. Yes, just briefly. As I said, this was one of 
the first issues we talked about. In January 2015 when I became 
chair of CIGIE----
    Mr. Connolly. That is right.
    Mr. Horowitz [continuing]. the issue had already been 
pending and I was, as we talked about, surprised at the 
response you got or the lack of response you got.
    I think there is a significant--there has been a 
significant change since then with two intervening events, one, 
Congress passing the IG Empowerment Act and the second being 
the change in chairmanship of the committee so that CIGIE owns 
the process now.
    Not that the FBI didn't care about the process or be part 
of it. They did. The problem is the FBI has 35,000 employees 
and a lot of significant issues on their plate and IG oversight 
probably isn't the highest priority on their----
    Mr. Connolly. And there was also sort of a built-in bias, 
wasn't there? Not a negative thing to say. They are a law 
enforcement agency. So they are looking at illegal behavior, 
criminal behavior. Well, we are looking at broader than that.
    Mr. Horowitz. Right. Agreed.
    Mr. Connolly. We are looking at be purer than driven snow.
    Mr. Horowitz. Right. Yes, I had this discussion with them 
when I came on board also. I get it. I worked with FBI agents. 
They have no authority to handle noncriminal administrative 
matters as part of their day jobs.
    Mr. Connolly. That is right.
    Mr. Horowitz. This was a collateral duty for them. We, 
obviously, understand the significance of it for all the 
reasons you have articulated and how to do them.
    And so I think there has been an important change with both 
the shift in management of it but also the policies and 
procedures put in. We very much look forward to continuing with 
the dialog with you.
    We couldn't agree more that the public, Members of 
Congress, all of our stakeholders have to be confident in what 
we do.
    It is one of the reasons on the whistleblower side we have 
put so much effort into reaching out to the community, the 
stakeholders there, set up the webpage, done that work, because 
they need to know they can trust us and come to us. Same here.
    We want--if there is real misconduct, actual misconduct, we 
also want to hear about it. We want to be the ones to find it. 
We want to be the ones to investigate it.
    We have--and I appreciate your comment about the numbers 
because if anyone looks at just the incoming complaints versus 
the actual numbers, they might wonder how do you get from a 
thousand or more to 10 or 20 or five.
    But we have a similar issue at our DOJ IG. I get 10,000-
plus complaints a year. That--a lot of those shouldn't belong 
with us and don't belong with us.
    Mr. Connolly. Yes.
    Mr. Horowitz. And here we have the added situation of it 
being easy to make a retaliatory complaint against an IG for 
doing their jobs and then complaining that somehow we were 
corrupt in what we did.
    Mr. Connolly. Or biased. Yes.
    Mr. Horowitz. Or biased. Now, that is not an unfair matter 
to come to us. To be clear, I am not saying those--that never 
could be the case. But the risk is it is coming to us solely 
because we did our jobs.
    Mr. Connolly. I thank you so much.
    We are going to be submitting additional questions for the 
record and if you could, you know, expeditiously but 
thoughtfully try to answer those, and anybody who wants to 
submit additional questions please feel free to send them to 
the chair and we will forward them.
    And before I adjourn the hearing, I want to thank all three 
of you for being here. I want to call on the ranking member for 
any additional comments he may have.
    Mr. Meadows. Thank you, Mr. Chairman, for your leadership 
on this and, again, thank you. You know, the great thing about 
the inspectors generals is that whether there is a Democrat in 
the chair or a Republican in the chair, the value remains the 
same.
    And so I just want to thank all of you for your work. I 
would say this. The chairman has just introduced a piece of 
legislation that is very meaningful and I think it would be 
important for us to get it to markup as quickly as possible, 
get that through the markup process and to the floor for a 
vote.
    Additionally, you all have now hit on an area that is 
critically important. We can sit back and we look at IGs and we 
give them a thumbs up or a thumbs down or, you know, equivocate 
kind of mark based on a set of criteria that is very ambiguous.
    You know, whether it is you, Mr. Dahl, or you, Ms. Buller, 
or you, Mr. Horowitz, I mean, when we look at all of this we 
judge you based on a standard that may not be fair. And so to 
the extent that we can work with you where we can say this is 
what true independence is about.
    This is what true integrity is about. This is what happens 
when you don't get the information or you don't act upon it.
    I think the chairman and I are willing to work in a 
bipartisan way to make sure that you have all the tools that 
you need and the financial resources as well.
    Mr. Connolly. Well said, and I thank my friend for his 
continuing leadership and interest in these issues.
    As Ms. Norton said, they may not be headline issues but 
they are about building a stronger government and more 
integrity within that government that better serves the 
American people and I thank my friend for his collaboration.
    With that, this hearing is adjourned.
    [Whereupon, at 12:36 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
